  AMERICA'S RECOVERY CAPITAL LOANS WERE NOT 

ORIGINATED AND CLOSED IN ACCORDANCE WITH SBA'S 

           POLICIES AND PROCEDURES 





              Report Number: ROM 11-03 

              Date Issued: March 2, 2011 





                     Prepared by the 

               Office of Inspector General 

          U. S. Small Business Administration 

          u.s. Small Business Administration
          Office of Inspector General                Memorandum
    To: 	 Grady Hedgespeth                                            Date:   March 2,2011
          Director, Office of Financial Assistance

         John A. Miller 

         Director, Office of Financial Program Operations 

         lsi Original Signed 

 From: 	 Peter L. McClintock 

         Deputy Inspector General 


Subject: 	 Report on the Origination and Closing of America's Recovery Capital Loans
           ROM 11-03

          This report presents the results of the audit of America's Recovery Capital (ARC) loans
          disbursed pursuant to the American Recovery and Reinvestment Act of 2009 (Recovery
          Act). The Recovery Act provided the Small Business Administration (SBA) with $730
          million to expand the Agency's lending and investment programs and create new
          programs to stimulate lending to small businesses. Of the $730 million received, $255
          million was authorized for SBA to establish the ARC loan program to provide small
          businesses access to the capital needed to drive economic recovery and retain jobs.

          The audit objectives were to (1) determine if ARC loans were originated and closed in
          accordance with SBA's policies and procedures, and (2) identify any evidence of
          suspicious activity.

          To answer these objectives, based on a stratified random sample design, we randomly
          selected a sample of 120 ARC loans from a population of 4,559 ARC loans approved
          between June 1,2009 and January 31,2010 with gross loan approvals totaling
          approximately $148 million and at least one disbursement as of January 31,2010. Of the
          120 loans reviewed, 79 were lender-approved and 41 were SBA-approved loans. As of
          November 12, 2010, one hundred thirteen, or 94 percent of the 120 sampled loans
          reviewed, had been fully disbursed. See Appendix I for further details on our sampling
          methodology and Appendix II for a list of the sampled loans.

          The audit fieldwork was performed by RER Solutions, Inc. (RER) under a contract with
          the Office ofInspector General (OIG). Fieldwork was conducted from April to October
          2010, in accordance with Government Auditing Standards prescribed by the Comptroller
          General of the United States. The contractor, RER, reviewed SBA and lender loan files
          using an OIG-approved checklist. For all loans examined, RER also reviewed
          information contained in SBA's Loan Accounting System.
                                                                                           2


BACKGROUND

The ARC loan program was a temporary program created pursuant to the Recovery Act
to provide deferred-payment, interest-free loans of up to $35,000 to "viable small
businesses" experiencing "immediate financial hardship." The program, which expired
on September 30,2010, was designed to help businesses make principal and interest
payments on qualifying small business loans (QSBLs). A QSBL was defined as an
existing loan that met the eligibility standards for a 7(a) loan. The SBA defined a viable
small business as an established for-profit business that was a going concern and had
reasonably demonstrated its projected continued operations through quarterly cash flow
projections. Furthermore, the business had to show profitability or positive cash flow in
at least one of the two previous years. A business suffering immediate financial hardship
was defined as one that was having difficulty making payments on loans and/or meeting
operating expenses as evidenced by declining sales, increasing expenses, a reduction in
working capital, etcetera. At the time of program expiration, 8,869 ARC loans had been
approved for approximately $287 million.

ARC loans are 100-percent guaranteed by SBA and made by participating lenders under
an agreement to originate, service, and liquidate loans in accordance with existing SBA
rules and regulations. Some ARC loans were made by lenders using their delegated
authority and others were approved by SBA. The SBA is released from liability on the
guaranty, in whole or in part, if the lender fails to comply materially with any of the
provisions of the regulations or the loan authorization, or does not make, close, service or
liquidate the loan in a prudent manner.

In compliance with the Improper Payments Information Act of 2002, SBA was required
to review all programs and activities for fiscal years 2009 and 2010, to determine whether
they were susceptible to significant improper payments. For such programs, the SBA
was required to produce an estimate of the annual amount of improper payments and
submit those estimates to Congress. The Act defines an improper payment as any
payment that should not have been made or that was made in an incorrect amount,
including any payment to an ineligible recipient or for an ineligible service. The Act also
defines a payment as any payment or commitment for future payment of Federal funds,
including a loan guaranty that is made by a federal agency. The Improper Payments
Elimination and Recovery Act of 20 10 requires similar reviews and estimations for future
fiscal years.

The Recovery Act and related Office of Management and Budget (OMB) guidance
required increased oversight of programs funded under the Act to deter and detect fraud,
waste, and abuse, and ensure that program goals were met. This audit was necessary due
to concerns that lenders would not exercise due diligence in originating and closing loans
given that the 100-percent SBA guaranty reduces lender risk.
                                                                                                                                   3


RESULTS IN BRIEF

The audit identified material origination and closing deficiencies l in fifty-six, or an
unweighted percentage of 47 percent, of the 120 ARC loans reviewed, which resulted in
inappropriate loan approvals of approximately $1.8 million because documentation in the
loan files was inadequate to ensure borrowers: (1) were viable small businesses, (2) used
ARC loan proceeds for existing qualifying small business loans, and/or (3) experienced
financial hardship. Of the 56 loans, 13 with inappropriate approvals of approximately
$400,000 were SBA-approved and 43 with inappropriate approvals of approximately $1.4
million were lender-approved. As of December 22,2010, the identified deficiencies
posed a $1.6 million risk of loss to the SBA. 2

Our audit also identified suspicious activity in 1 loan, which has been referred to our
Investigations Division for further review. Based on the sample results, from the
universe of 4,559 loans with gross loan approvals totaling approximately $148 million,
we estimate that 2,228 of the ARC loans made between June 1,2009 and January 31,
2010, with at least one disbursement as ofJanuary 31,2010, were not originated and
closed in compliance with SBA's policies and procedures, resulting in approximately
$66.5 million in inappropriate loan approvals. Of the 2,228 loans, we estimate that 363
with inappropriate approvals totaling approximately $9.5 million were SBA-approved,
and 1,865 with inappropriate approvals totaling approximately $57 million were lender­
approved. In accordance with the Improper Payments Information Act of 2002, if
adequate support cannot be obtained to overcome the identified deficiencies, these
improper loan guaranties should be considered improper payments.

In order to address the loan deficiencies, we recommended that SBA flag all 56 loans to
ensure the deficiencies are properly addressed should the loans default and be submitted
for purchase. We also recommended that SBA notify the Office of Inspector General of
any denials, repairs, withdrawals, or cancellations of SBA' s guaranties made as a result
of the deficiencies identified during purchase review. Further, we recommended that
SBA notify the loan servicing center responsible for purchasing defaulted ARC loans of
the high number of deficiencies identified and require the center to carefully review all
ARC loans for compliance with SBA's requirements during its purchase review.

To prevent the occurrence of similar deficiencies in other SBA-approved loans, we
recommended that SBA provide feedback to the SBA loan officers who approved the
ARC loans in which deficiencies were identified. Lastly, to ensure the proper estimation
of improper payments in the ARC loan program, we recommended that SBA notify the
improper payment review team of the high rate of improper ARC loan guaranties
identified during this audit.

Management agreed or partially agreed with all of the recommendations and proposed
actions that were responsive.


1   For purposes of this report, material deficiencies are defined as those which may result in improper payments. 

2   The risk ofloss was calculated as SBA's share ofthe outstanding loan balance or the deficiency amount, whichever was less. 

                                                                                         4


RESULTS

ARC Loans Were Not Originated and Closed in Accordance with SBA's Policies
and Procedures

Material origination and closing deficiencies were identified in fifty-six of the 120 ARC
loans reviewed, which resulted in inappropriate approvals of approximately $1.8 million.
Of the 56 loans, 13 with inappropriate approvals of approximately $400,000 were SBA­
approved and 43 with inappropriate approvals of approximately $1.4 million were lender­
approved. As shown in Table 1 below, the majority of the deficiencies identified in
the 56 loans involved inadequate support for borrower viability and use of proceeds.
Further, some loans did not have adequate support that the businesses were suffering
immediate financial hardship. As of December 22,2010, these identified deficiencies
posed a $1.6 million risk of loss to SBA.

Based on the sample results, from the universe of 4,559 loans with gross loan approvals
totaling approximately $148 million, we estimate that 2,228 of the ARC loans made
between June 1,2009 and January 31,2010, with at least one disbursement as of
January 31,2010, were not originated and closed in compliance with SBA's policies and
procedures, resulting in approximately $66.5 million in inappropriate loan approvals. Of
the 2,228 loans, we estimate that 363 were SBA-approved with inappropriate approvals
totaling approximately $9.5 million, and 1,865 were lender-approved with inappropriate
approvals totaling approximately $57 million. In accordance with the Improper
Payments Information Act of 2002, if adequate support cannot be obtained to overcome
the identified deficiencies, these improper loan guaranties should be considered improper
payments. Given the high rate of deficiencies identified for the scope of our audit, we
anticipate that ARC loans approved between February 1 and September 30,2010 may
also have a high deficiency rate. Our sampling methodology and projections are
provided in Appendix I, and a listing of the sampled loans and deficiencies is provided in
Appendix II.
                                                                                                            5


                               Table 1. Material Deficiencies Noted in 56 Loans

                          Number of                                                          Approval
    Deficiency          deficient loans            Description of           Number of        Amounts
      Type               in sample of               Deficiency             deficiencies *   allocated to
                             120*                                                           deficiency* *
                                             Inadequate cash flow
                                                                                30
                                             analysis/projections
                                             Unable to show
     Viability                 33                                                            $834,172
                                             profitability or positive
                                                                                 4
                                             cash flow in 1 of the 2
                                             previous years
                                             No documentation (i.e.
                                             note or credit card
                                             statement) to show that            15
                                             proceeds were used for
                                             QSBLs
      Use of                                 Documentation provided
                               31                                                            $572,574
     Proceeds                                does not support the
                                                                                10
                                             sound business use of
                                             QSBLs
                                             Documentation shows
                                             payments were made on               8
                                             ineligible QSBLs
                                             Inadequate evidence to
                                             support financial                   7
     Hardship                  12            hardship                                        $241,300
                                             Financials contradicted
                                                                                 5
                                             claimed hardship
    TOTALS               56                                                     79          $1,648,046
 Source: Lender and SBA loan files
 * Some loans had multiple deficiencies. 

 ** Dollar values are allocated to each deficiency and do not overlap. 


Viability

The audit determined that 33 loans approved for $1 million, which included 8 SBA­
approved and 25 lender-approved loans, did not have adequate support to demonstrate the
borrower's viability as required. SBA's ARC loan procedural guide requires the
borrower to be a going concern that is actively engaged in business with the expectation
of indefinite continuance. The business must be able to reasonably demonstrate its
projected continued operation for a reasonable period beyond the 6-month period of
payment assistance with an ARC loan. Continued operation is evidenced by quarterly
cash flow projections for two years that demonstrate the small business has the capacity
to meet future debt service obligations, including the ARC loan. Further, SBA requires
that the business provide evidence of profitability or positive cash flow in at least 1 of the
past 2 years. The audit found that the 33 loans had (1) unsupported, unreasonable, or
missing cash flow projections; (2) flawed cash flow analyses due to debt obligations not
being considered, inappropriate add-backs to cash flow, or a general lack of repayment
ability; and/or (3) inadequate evidence that the business was profitable or had positive
cash flow for at least 1 of the past 2 years.
                                                                                            6


The following examples illustrate the deficiencies identified in the 33 loans:

    • 	 The SBA approved a $35,000 loan even though the required cash flow statements
        were based on a loan amount of only $11,160 and omitted debt service obligations
        on the borrower's delinquent 504 loan. Three different cash flow scenarios were
        provided for this loan. When recalculated to consider the higher loan amount and
        all debt service requirements, two of these scenarios showed a lack of repayment
        ability. Furthermore, although the third scenario did show repayment ability, it
        was based on unreasonable and unsupported sales projections.

    • 	 One lender approved a loan for $35,000 even though the cash flow projections for
        the 2 years following loan approval showed net losses of$73,116 and $166,820,
        respectively, resulting in inadequate debt service coverage.

    • 	 The SBA approved 1 loan and lenders approved 3 loans to businesses without
        adequate evidence that they were profitable or had positive cash flow for at least 1
        of the 2 years prior to approval of the ARC loans. In fact, the financial statements
        for one business showed net losses for 3 full years and the interim period before it
        obtained the ARC loan, and the financial analysis was inadequate to demonstrate
        positive cash flow for the 2 years prior to approval of the ARC loan.

Use of Proceeds

The audit determined that 31 ARC loans were approved for $1 million without adequate
support to demonstrate eligibility of the QSBLs. SBA's ARC loan procedural guide
states that the use of proceeds for each QSBL must be consistent with an eligible use of
proceeds for a 7(a) loan. Further, it states that ARC loans must be used to pay QSBLs
that were made for sound business purposes and that each loan file must contain evidence
of the QSBLs, such as a note with scheduled payments of principal and/or interest. The
ARC procedural guide specifically prohibited payments on QSBLs that were (1)
distributions or loans to associates of an applicant, (2) used for a purpose that did not
benefit the business, (3) used to invest in real or personal property that was acquired and
held primarily for sale, lease, or investment, or (4) used for a debt that did not exist prior
to the ARC loan application.

Nevertheless, the SBA approved 6 ARC loans and lenders approved 25 ARC loans that
did not meet QSBL requirements. For example, the SBA approved ARC loans without
the required documentation to support the existence of the QSBLs or to demonstrate they
were used for sound business purposes. Furthermore, lenders approved ARC loans that
appeared to be used for ineligible purposes, including (1) payments to associates, (2)
payments on a personal home mortgage, (3) a pass through loan to an affiliated borrower
who was previously denied an ARC loan, (4) payments on QSBLs dated after ARC loan
approval, and (5) payments on QSBLs of a business engaged in real estate investment.
                                                                                            7



Hardship

The audit found that lenders and the SBA did not properly assess borrowers' immediate
financial hardship on 12 loans approved for approximately $391,300. To establish
eligibility for the ARC loan program, SBA's procedural guide requires evidence that
borrowers are having difficulty making periodic payments of principal and interest on
QSBLs and/or meeting operating expenses of the business. Immediate financial hardship
is demonstrated by a change in the financial condition of a small business such as a 20­
percent or more decline in revenue over the preceding 12 months, a 20-percent or more
increase in expenses over the preceding 12 months, or a 20-percent or more reduction in
working capital, and so forth. Borrowers were required to certify that they were
experiencing immediate financial hardship, identify the nature of the hardship, and
provide evidence of the hardship. Lenders and the SBA were required to analyze the
evidence provided and determine whether an immediate financial hardship existed.

Nonetheless, the SBA approved 1 ARC loan and lenders approved 11 ARC loans to
borrowers when there was inadequate evidence to support the financial hardship or the
financial information actually contradicted the claimed financial hardship. For example,
financial statements for some loans showed an increase in revenue, while the borrowers
cited a 20-percent decrease in sales as the reason for their hardship.

Suspicious Activity Was Identified in One ARC Loan

We identified suspicious activity in 1 of the 120 loans reviewed. This loan has been
referred to the OIG Investigations Division.

RECOMMENDATIONS

We recommend that the Director, Office of Financial Program Operations:

    1. 	 Flag all 56 loans to ensure the deficiencies are properly addressed if the loans
         default and are submitted for purchase. Further, notify the Office of Inspector
         General of any denials, repairs, withdrawals, or cancellations of SBA' s guaranties
         made as a result of the deficiencies identified during the purchase reviews.

   2. 	 Notify the loan servicing center responsible for purchasing defaulted ARC loans
        of the high number of deficiencies identified and require the center to carefully
        review all ARC loans for compliance with SBA's requirements during its
        purchase review.

   3. 	 Provide feedback to the SBA loan officers who approved the ARC loans in which
        deficiencies were identified to prevent similar deficiencies in the approval of
        other SBA loans.
                                                                                           8


   4. 	 Notify the improper payment review team of the high rate of improper ARC loan
        guaranties identified during this audit to ensure the proper estimation of improper
        payments in the ARC loan program.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

On December 14, 2010, we provided a draft of the report to SBA for comment. 

On February 11, 2011, SBA provided written comments, which are contained in their 

entirety in Appendix III. SBA agreed or partially agreed with all of the recommendations 

and proposed actions that were responsive. 


General Comments

The SBA stated that it was required to interpret the Recovery Act provisions with regard
to viability and financial hardship, and therefore, many of the exceptions identified in the
audit were based on procedural guidance that, at the agencies discretion, may still be able
to be waived if the intent of the provision was met and did not violate the law. As noted
in the report, the objective of our audit was to determine if ARC loans were originated
and closed in accordance with SBA's policies and procedures. In this case, the only
policy or procedure that existed, by which to assess lender and SBA compliance, was the
ARC loan procedural guide. This guide was developed by SBA to interpret and
implement the law and provide procedures for lenders and SBA to follow when making
ARC loans. As the deficiencies identified in the audit were in the areas of viability,
financial hardship, and use of proceeds for qualified small business loans, which were all
aspects of the program established by the Recovery Act, we believe all of our findings
represent violations of the intent of the provisions of the procedural guide and the law as
interpreted by the SBA.

The SBA claimed that it was able to obtain additional information from lenders to
support that SBA's approval of certain loans was in compliance with the procedural
requirements, but also recognized that making an ARC loan decision without all required
documentation was a concern. As the audit objective focused on the appropriateness of
SBA and lenders' origination and closing actions, loans made without the proper
documentation are still cited as deficiencies in the audit report.

The SBA also stated that the OIG did not give delegated lenders the opportunity to
correct the deficiencies, so the true extent of the deficiencies is not known. However, the
OIG requested the entire lender loan file for each sampled loan that was made by a
delegated lender and each lender certified in writing that the documents provided
constituted a complete and accurate copy of all original documents in the lender's
possession pertaining to the sampled loan. As SBA recognized, making ARC loans
without all required documentation is a concern. As a result, we continue to support our
conclusion that the deficiencies identified on all sampled loans, including delegated and
non-delegated loans, represent true and material origination and closing deficiencies and
pose a significant risk of loss to the SBA. Nevertheless, our audit report has been slightly
revised to clarify that the deficiencies identified were related to inappropriate loan
                                                                                           9


approvals and not necessarily improper payments if additional documentation can be
subsequently obtained to address the deficiencies.

Finally, the SBA claimed that by working with the OIG, it was determined that 3 of
the 15 SBA-approved loans identified in the draft report as having deficiencies were
actually processed in accordance with the intent of the ARC loan procedural guide
requirements. The OIG, however, only agreed that 2 of the 15 SBA-approved loans for
which deficiencies were identified had been processed in accordance with the intent of
the guide, and as a result, these 2 deficiencies were removed from the report. The SBA
has not yet reviewed the 43 lender-approved loans with identified deficiencies, but stated
its review of delegated and non-delegated loans will continue. Based on clarification
obtained from SBA in relation to line of credit QSBLs, however, we did remove the
deficiency on one lender-approved loan from our audit results.

Recommendation 1

The SBA agreed to flag all loans identified with outstanding deficiencies and stated it
will issue a procedural memo to the ARC guaranty purchase centers to provide notice to
the OIG of any denials, repairs, withdrawals or cancellations of SBA' s guaranties
resulting from the identified deficiencies. The SBA will also review each outstanding
deficiency and provide notes in the chron system for all loans with deficiencies to be
resolved at the time of guaranty purchase. SBA's proposed actions are responsive to
recommendation 1.

Recommendation 2

The SBA agreed to notify the ARC loan guaranty purchase centers of the high number of
deficiencies identified and stated it will issue a procedural memo to the centers advising
them to conduct comprehensive guaranty purchase reviews on all ARC loans for
compliance with SBA's requirements. SBA's proposed actions are responsive to
recommendation 2.

Recommendation 3

The SBA agreed to provide feedback to SBA loan officers associated with the ARC loans
in which deficiencies were identified. SBA's proposed action is responsive to
recommendation 3.

Recommendation 4

The SBA partially agreed with this recommendation, stating it was not clear that there
were improper payments since additional work may result in obtaining supporting
documentation, or they may determine certain procedural requirements can be waived
after the fact, if a decision is made that the intent of the provision was met. Accordingly,
the SBA disagreed that there was a high improper payment rate but agreed that the
                                                                                           10


improper payment review team should be made aware of the high number of deficiencies
identified by the OIG and plan accordingly.

As stated above, the OIG believes that all of the loan deficiencies identified in the audit
represent violations of the intent of the ARC loan procedural guide provisions and do not
believe that waiving the provisions, after the fact, is an acceptable practice to be taken by
the SBA in addressing the identified deficiencies. Furthermore, while additional
supporting documentation may be subsequently obtained, the loans in question were
approved without adequate support and therefore, at this time, are considered improper
payments within the scope of this audit. Until the SBA completes its review of all loans
in question and provides evidence of compliance with the procedural requirements, the
agency's claim that there is not a high improper payment rate in this program cannot be
supported.

ACTIONS REQUIRED

Please provide your management response for each recommendation on SBA Forms
1824, Recommendation Action Sheet, within 30 days from the date of this report. Your
responses should identify the specific actions taken or planned to fully address each
recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access during this
audit. If you have any questions concerning this report, please call me at (202) 205-6586
or Jeff Brindle, Acting Director, Recovery Oversight Group at (202) 205-7490.
                                                                                                                      11

APPENDIX I. SAMPLING METHODOLOGY

The universe was pulled from SBA's Loan Accounting System and consisted of 4,559
ARC loans that were approved between June 1,2009 and January 31,2010 with at least
one disbursement as of January 31,2010. The universe was broken into two strata - one
with 1,677 ARC loans totaling $55,593,038 and one with 2,882 ARC loans totaling
$92,367,057. Based on information contained in SBA's Loan Accounting System, it
appeared the first stratum represented SBA-approved ARC loans while the second
stratum represented lender-approved ARC loans. Therefore, upon consultation with a
statistician, we used Interactive Data Extraction and Analysis Software (IDEA) to
randomly select 60 loans from each stratum for a total sample size of 120 loans.
Subsequent to this extraction; however, we learned that the first stratum actually included
both SBA and lender-approved loans? As a result, our sample in fact consisted of 41
SBA-approved loans and 79 lender-approved loans.

In addition to a point estimate, our estimation also produces a margin of error, which
quantifies the precision based on by sample-to-sample variation. Sampling precision is
indicated by ranges, or confidence intervals, that have upper and lower limits at a certain
confidence level. Calculating at a 90-percent confidence level means the chances are 9
out of 10 that, if we reviewed all of the loans in the total population, the resulting values
would be between the lower and upper limits, with the population point estimates being
the most likely amounts.

In consultation with the statistician, the following projections using Stata v.ll software
were performed to calculate the precision statistics at a 90-percent confidence level.
Projecting our sample results to the universe of 4,559 ARC loans with gross loan
approvals totaling approximately $148 million, we estimated that 2,228 loans made
between June 1, 2009 and January 31, 2010 with at least one disbursement as of January
31, 2010 were not originated and closed in accordance with SBA's policies and
procedures, resulting in inappropriate loan approvals totaling approximately $66.5
million. The tables below show the breakdown of the projected numbers per type of
loan. The first table reports the projected error rates, the second table reports the number
of errors, and the third table illustrates the projected deficiency amounts.

                                                  Projected Error Rates
                                                   Projected      Lower Limit Upper Limit
                            Type of Loan
                                                  Error Rate        (90% (I)         (90% (I)
                         SBA-Approved                    31.7%
                         Le nde r-Approved               54.6%
                         Total                           48.9%            41.2%            56.6%




3   Stratification criteria are auxiliary to the estimation. Mislabeling strata does not introduce a bias in the resultant
     estimates. However, it could introduce imprecision, which can lead to a larger margin of error.
                                                                         12

                        Projected Error CmIDts
                          Projected    Lower Limit Upper Limit
      Type of Loan
                         Error Count      (90% CI)       (90% CI)
    SBA-Approved                 363
    Le nde r-Approved          1,865
    Total                      2,228          1,876          2,580


                        Projected Error Amounts
                         Projected         Lower Limit     Upper Limit
  Type of Loan
                   Deficiency Amount         (90% CI)        (90% CI)
SBA-Approved      $           9,517,255
Le nde r-Approved $          57,030,190
Total             $          66,547,445    $ 55,241,303 $ 77,853,565
                                                                                                                   13


            APPENDIX II. SAMPLED LOANS AND DEFICIENCIES

                                           Deficiency
                                           Type (See                                       Approved   Deficiency
  #      Loan Number   I   Borrower Name    Legend)         Deficiency Description          Amount    Amount"


  1                                            -                                            $35,000      $0
r---­
  2
r---­
                                               -                                            $35,000      $0
                                                        (A) Inadequate cash flow
                                                        analysis, (B)
                                                        Purpose/Eligibility for $11,504
                                                        other institution debt
~                                             A,B       unsupported                         $35,000    $35,000
                                                        (B) Business use ofHELOC
                                                        refinanced with commercial
~                                              B        line of credit not supported        $35,000    $35,000
                                                        (A) No profitability previous 4
                                                        years; Unable to show positive
                                                        cash flow in 1 of the 2 previous
  5                                            A        years                               $35,000    $35,000
r---­
                                                        (B) Business use of $3,700
  6                                            B        credit card debt not supported      $35,000    $3,700
r---­
  7
r---­
                                               -                                            $35,000      $0

  8
r---­                                          -                                            $35,000      $0
                                                        (A) Projections show negative
  9                                            A        cash flow                           $35,000    $35,000
r---­

                [FOIA ex. 4]
  10
r---­                                          -                                            $35,000      $0
                                                        (A) Projections are
                                                        unreasonable and include
~                                              A        incorrect add-backs                 $35,000    $35,000

  12
r---­
                                               -                                            $35,000      $0
                                                        (B) Proceeds used to pay
  13                                           B        owner of the business               $35,000    $25,000
r---­
                                                        (B) Business use ofHELOC
                                                        not supported, (C) Financials
  14                                          B,C       contradicted hardship claim         $35,000    $35,000
r---­
  15
r---­
                                               -                                            $35,000      $0
                                                        (A) No profitability or positive
                                               A        cash flow in previous 2 years       $35,000    $35,000
r---!L
  17
r---­
                                               -                                            $32,300      $0
                                                        (A) Inadequate cash flow
                                               A        projections                         $35,000    $35,000
r---!L
~                                              -                                            $35,000      $0

                                               -
~                                                                                           $35,000      $0

  21
r---­                                          -                                            $35,000      $0

  22
r---­
                                               -                                            $35,000      $0

                                                        (A) No cash flow projections,
                                                        (B) No support for QSBLs, (C)
~                                            A,B,C      No support for hardship             $35,000    $35,000

  24                                           -                                            $35,000      $0
                                                                                                                   14

                                           Deficiency
                                           Type (See                                       Approved   Deficiency
  #      Loan Number   I   Borrower Name    Legend)         Deficiency Description          Amount    Amount"

                                               -
~
                                                                                            $35,000      $0

  26
f---­
                                               -                                            $35,000      $0

  27
f---­
                                               -                                            $35,000      $0

  28
f---­
                                               -                                            $15,200      $0
                                                        (A) Inadequate cash flow
                                                        analysis; Did not consider all
~                                              A        debts                               $35,000    $35,000
                                                        (B) Missing some support for
                                                        QSBLs; Some debt incurred
                                                        after loan approval
r--12­                                         B                                            $35,000    $13,958

  31
f---­
                                               -                                            $35,000      $0
                                                        (A) Personal income relied
                                                        upon without considering
                                                        personal expenses and all
  32                                           A        business debt                       $8,200     $8,200
f---­
                                                        (A) Cash flow did not consider
                                               A        affiliates and debt service         $35,000    $35,000
r--ll­
~                                              -                                            $18,500      $0

~                                              -                                            $35,000      $0
                                                        (A) No profitability or positive
                                                        cash flow in previous 2 years;
                                                        ARC loan not considered in
~
                [FOIA ex. 4]                   A        cash flow                           $35,000    $35,000
                                                        (A) Inadequate cash flow
                                                        projections; Business not a
~                                              A        going concern                       $35,000    $35,000

                                               -
~
                                                                                            $35,000      $0

  39
f---­
                                               -                                            $35,000      $0

  40
f---­
                                               -                                            $35,000      $0

                                               -                                            $35,000      $0
r-2!­
  42
f---­
                                               -                                            $29,000      $0
                                                        (A) Inadequate cash flow
                                                        analysis, (C) Financial
                                                        statements contradicted
  43                                          A,C       hardship claim                      $26,300    $26,300
f---­
  44
f---­
                                               -                                            $35,000      $0

  45
f---­
                                               -                                            $35,000      $0

  46
f---­
                                               -                                            $35,000      $0

  47
f---­
                                               -                                            $35,000      $0

  48
f---­
                                               -                                            $35,000      $0

  49
f---­
                                               -                                            $35,000      $0

  50
f---­
                                               -                                            $35,000      $0
                                                        (B) No support for part of use
                                               B        of proceeds                         $33,800    $12,000
r--B­
  52                                           -                                            $31,800      $0
f---­

  53                                           -                                            $35,000      $0
                                                                                                                  15

                                           Deficiency
                                           Type (See                                      Approved   Deficiency
  #      Loan Number   I   Borrower Name    Legend)         Deficiency Description         Amount    Amount"
                                                        (A) Inadequate cash flow
~
                                               A        projections                        $16,600    $16,600

                                               -
r--2L                                                                                      $35,000      $0

  56
r---­
                                               -                                           $35,000      $0
                                                        (B) A portion of proceeds not
                                               B        supported                          $25,000    $11,210
r--22­
  58
r---­                                          -                                           $35,000      $0
                                                        (B) Proceeds used for personal
  59                                           B        mortgage                           $21,100    $21,100
r---­
                                                        (A) No historical financial
                                                        information, (B) No support for
  60                                          A,B       QSBLs                              $35,000    $35,000
r---­
                                               -
~                                                                                          $35,000      $0

  62
r---­                                          -                                           $35,000      $0
                                                        (A) Cash flow did not consider
                                                        all debt, (B) Proceeds
~                                             A,B       disbursed to an associate
                                                        (B) Business use of credit card
                                                                                           $35,000    $35,000

                                                        debt not supported, (C)
                                                        Financia1s contradicted
~                                             B,C       hardship claim                     $35,000    $35,000
                                                        (B) Business use of credit card
~                                              B        debt not supported                 $35,000    $35,000

~               [FOIA ex. 4]                   B        (B) No support for QSBL            $35,000    $35,000

  67                                           B        (B) No support for QSBL            $35,000    $35,000
r---­
                                                        (A) Cash flow did not consider

~                                              A        all debt                           $24,000    $24,000

  69                                           -                                           $35,000      $0
r---­
                                                        (A) Inadequate cash flow, (B)
                                                        Business use of$15,088 not
  70                                          A,B       supported                          $35,000    $35,000
r---­
                                                        (C) Financia1s contradict
  71                                           C        hardship claim                     $35,000    $35,000
r---­
  72
r---­
                                               -                                           $35,000      $0

                                               -
r--1L                                                   (A) Incorrect add-backs to cash
                                                                                           $35,000      $0

  74                                           A        flow                               $35,000    $35,000
r---­
  75
r---­
                                               -                                           $35,000      $0


~                                              -                                           $35,000      $0
                                                        (A) Projections show negative
                                                        cash flow, (B) No support for
                                                        QSBLs and disbursements
                                                        made for real estate
                                                        investment, (C) No support for
                                             A,B,C      hardship                           $35,000    $35,000
c-I!­
                                               -
~                                                       (C) Financia1s contradict
                                                                                           $35,000      $0

  79                                           C        hardship claim                     $35,000    $35,000
r---­
~                                              -                                           $35,000      $0

                                               -
r--B­                                                                                      $17,100      $0

  82                                           -                                           $35,000      $0
                                                                                                                 16

                                          Deficiency
                                          Type (See                                      Approved   Deficiency
  #     Loan Number   I   Borrower Name    Legend)        Deficiency Description          Amount    Amount"
                                                       (A) Unreasonable projections-
 83                                           A        significant decrease in COGS       $35,000    $35,000
r---­
 84
r---­
                                              -                                           $22,000      $0

 85
r---­                                         -                                           $35,000      $0

 86                                           -                                           $35,000      $0
r---­

 87
r---­                                         -                                           $35,000      $0
                                                       (A) Projections not prepared
 88                                           A        correctly                          $35,000    $35,000
r---­
 89                                           B        (B) Business use not supported     $35,000    $35,000
r---­
                                                       (A) Cash flow did not consider
~                                             A        all debt                           $35,000    $35,000
                                                       (A) No cash flow projections,
 91                                          A,C       (C) No support for hardship        $35,000    $35,000
r---­
 92                                           B        (B) No support for QSBL            $35,000    $35,000
r---­
 93                                           A        (A) Projections indicate losses    $19,900    $19,900
r---­
                                                       (A) Projections are
                                                       unreasonable-increased sales,
                                                       missing expenses, (B) Business
 94                                          A,B       use not supported for $5,486       $32,600    $32,600
r---­
 95
r---­
               [FOIA ex. 4]                   -                                           $35,000      $0

 96                                           B        (B) Business use not supported     $35,000    $12,670
r---­

 97
r---­
                                              -                                           $35,000      $0

                                              -
~                                                                                         $35,000      $0


~                                             -                                           $35,000      $0


                                                       (A) No cash flow projections;
 100                                         A,B       (B) No support for QSBLs           $29,700    $29,700
r---­
 101
r---­                                         -                                           $35,000      $0
                                                       (B) Proceeds used for personal
 102                                          B        home mortgage                      $35,000    $35,000
r---­
                                                       (A) Inadequate cash flow
                                                       analysis, (B) No support for
~                                            A,B       QSBL                               $35,000    $35,000
                                                       (B) Some QSBLs dated after
 104                                          B        ARC loan approval                  $35,000    $14,865
r---­
                                                       (A) Inadequate cash flow
 105                                          A        projections                        $26,600    $26,600
r---­
                                                       (A) No cash flow projections,
                                                       (B) No support for QSBLs, (C)
~                                           A,B,C      No support for hardship            $15,000    $15,000

 107
r---­                                         -                                           $35,000      $0

 108                                          B        (B) No support for QSBL            $35,000    $35,000
r---­
                                                       (A) Inadequate cash flow
~                                             A        projections                        $18,500    $18,500

 llO
r---­                                         -                                           $25,000      $0

 III                                          -                                           $35,000      $0
                                                                                                                                       17


                                                       Deficiency
                                                       Type (See                                         Approved        Deficiency
    #      Loan Number         Borrower Name            Le~end)           Deficiency Description          Amount         Amount"
                                                                      (A) No cash flow projections,
                                                                      (B) No support for some
                                                                      QSBLs and business use not
    112                                                   A,B         supported for others                $35,000         $35,000
r---­
    113
r---­                                                       -                                             $35,000            $0
                                                                      (A) Borrower not an operating
                                                                      concern, (C) No support for
    114                                                   A,C         hardship                            $35,000         $35,000
r---­

~                      [FOIA ex. 4]                         B         (B) No support for QSBL             $35,000         $21,143
                                                                      (B) Pass thru loan to affiliate
                                                                      previously denied an ARC
                                                                      loan, (C) No evidence of
    116                                                   B,C         hardship                            $35,000         $35,000
r---­
    117
r---­                                                       -                                             $35,000            $0

~                                                           C         (C) No evidence of hardship         $35,000         $35,000

    119
r---­
                                                            -                                             $35,000            $0

    120                                                     -                                             $35,000            $0

               Totals                                                                                    $3,953,200       $1,648,046
*    Deficiency amount was calculated as the potential Improper payment amount associated with the Identified deficiencies.


Deficiency Type Legend:

        A. Viability
        B. Use of Proceeds
        C. Hardship
                                                                                           18


APPENDIX III. AGENCY COMMENTS 





                         u.s. SMALL BUSINESS ADMINISTRATION
                                  WASHINGTON, D.C. 20416

                                   MEMORANDUM
                                   February 10, 2011

To:        Peter L. McClintock
           Deputy Inspector General

From:      Grady Hedgespeth
           Director, Office of Financial Assistance

           John A. Miller
           Director, Office of Financial Program Operations

Subject:   Response to Draft Report on the "America's Recovery Capital Loans were not
           Originated and closed in accordance with SBA's policies and procedures",
           Project No. 10505A

Thank you for the opportunity to review the draft report. We appreciate the role the
Office ofInspector General (OIG) plays in assisting management in ensuring that these
programs are effectively managed.

As part of the Recovery Act, SBA implemented the America's Recovery Capital (ARC)
loan program to give viable small businesses suffering immediate financial hardship
temporary financial relief to help ride out uncertain economic times and return to
profitability. Almost 9,000 ARC loans were approved, sustaining small businesses and
retaining jobs critical to the nation's economy.

In establishing the ARC Loan Program, SBA was required to interpret the ARRA
provisions regarding viability and financial hardship. Many of the exceptions identified
by OIG in its audit of the ARC Loan Program were based upon procedural guidance that,
at the agencies discretion, may be able to be waived if the intent of the provision was met
and did not violate the law.

Based on the Agency's review of certain SBA approved loans, staff was able to obtain
additional information from the lender to comply with the procedural requirements.
While we understand that making an ARC loan decision without all required
documentation is a concern, the loan itself met the requirements. In its audit, OIG also
reviewed loans that were made on a delegated, basis but did not give delegated lenders
                                                                                            19


the opportunity to correct the deficiencies so the true extent of the deficiencies is not
known.

In following through on your review our analysis indicates that 44 of the 59 loans
identified as having material deficiencies were approved under delegated authority by
delegated lenders, and 15 were approved by SBA in our 7(a) loan guaranty processing
center. We have been begun to review the deficiencies identified by OIG, and working
with OIG have determined that 3 of the 15 loans were processed in accordance with the
intent of ARC. Our review of the delegated and non-delegated loans will continue.

Management's responses to the specific recommendations included in the draft report are
provided below:

1.     Flag all 59 loans to ensure the deficiencies are properly addressed if the loans
default and are submitted for purchase. Further, notify the Office ofInspector
General of any denials, repairs, withdrawals, or cancellations ofSBA 's guaranties
made as a result ofthe deficiencies identified during the purchase reviews.

OFPO agrees with this recommendation and plans the following actions:

     • 	 Flag all loans identified with the outstanding deficiencies.
     • 	 Issue a procedural memo to the ARC guaranty purchase centers to provide notice
         on any and all denials, repairs, withdrawals or cancellations of guaranties
         resulting from identified deficiencies to Office of Inspector General.
     • 	 OFPO will review and address each outstanding deficiency and will provide brief
         notes on the chron system for all loans with outstanding deficiencies to be
         resolved at the time of guaranty purchase.

2.      Notify the loan servicing center responsible for purchasing defaulted ARC
loans ofthe high number of deficiencies identified and require the center to carefully
review all ARC loans for compliance with SBA's requirements during its purchase
revIew.

OFPO concurs with this recommendation and will issue a procedural memo to the ARC
loan guaranty purchase centers to conduct comprehensive guaranty purchase review on
all ARC loans for compliance with SBA's requirements.

3.      Provide feedback to SBA loan officers who approved the ARC loans in which
deficiencies were identified to prevent similar deficiencies in the approval ofother SBA
loans.

OFPO concurs with this recommendation and plans the following actions:

     • 	 Identify SBA loan officers associated with referenced ARC loans.
     • 	 Provide feedback to identified SBA loan officers.
                                                                                          20


4.     Notify the improper payment review team ofthe high rate ofimproper ARC
loan guaranties identified during this audit to ensure the proper estimation ofimproper
payments in the ARC loan program.

OFPO partially agrees with this recommendation. Given the nature of the work done by
OIG in the audit, it is not clear that there are improper payments since additional work
may result in obtaining supporting documentation or SBA may determine that it can
waive certain procedural requirements, after the fact, if a decision is made that the intent
of the provision was met. In either case, these would not be improper payments.
Accordingly, SBA disagrees with the conclusion that there is a high improper payment
rate but agrees that the improper payment review team should be made aware of the
situation and plan accordingly in its future testing.

Again, thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.
